                                               Office of Inspector General
                                              Corporation for National and
                                                       Community Service




    AUDIT OF CORPORATION FOR NATIONAL
AND COMMUNITY SERVICE GRANTS AWARDED TO
   THE MARYLAND GOVERNOR’S OFFICE ON
        SERVICE AND VOLUNTEERISM

             OIG REPORT NUMBER 07-05




                         Prepared by:

             Leon Snead & Company, P.C.
            416 Hungerford Drive, Suite 400
              Rockville, Maryland 20850

 This report was issued to Corporation management on October 4, 2006. Under the laws
 and regulations governing audit follow-up, the Corporation is to make final management
 decisions on the report’s findings and recommendations no later than April 5, 2007, and
 complete its corrective actions by October 4, 2007. Consequently, the reported findings
 do not necessarily represent the final resolution of the issues presented.
                           OFFICE OF INSPECTOR GENERAL

                                Audit of Grants Awarded to
                    Maryland Governor’s Office on Service and Volunteerism
                                    Audit Report 07-05

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Leon Snead & Company, P.C. (Snead) to perform an audit of
grants awarded to the Maryland Governor’s Office on Service and Volunteerism (GOSV).
The audit covered the latest two years of performance through December 31, 2005, for ten
grants initially awarded during the period April 1, 2001, to April 1, 2005.

Funding authorized for these grants totaled $8.6 million, with costs claimed totaling about
$5.7 million. The audit identified questioned grant costs of $461,086, match of $195,327 and
education awards of $162,260. Most of the questioned costs were related to unsupported
member eligibility and unsupported match.

The report also includes seven findings and related recommendations to improve compliance
with grant requirements and to improve internal controls. The Commission was responsive
to most of the recommendations. The Corporation intends to address all findings and
recommendations in its management decision.

In connection with the contract for audit, we reviewed Leon Snead and Company’s report
and related documentation and inquired of its representatives and performed other
procedures, as we deemed appropriate in the circumstances to provide reasonable assurance
that the audit was performed in accordance with generally accepted government audit
standards. Our review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to express, and we do
not express, opinions on GOSV’s Consolidated Schedule of Award Costs or conclusions on
internal control and on compliance with laws and regulations. Leon Snead and Company,
P.C. is responsible for the auditor’s report dated May 19, 2006 and the conclusions expressed
in the report. However, our review disclosed no instances where Leon Snead and Company
P.C. did not comply, in all material respects, with U.S generally accepted government
auditing standards.

This report is a matter of public record, and its’ distribution is not limited.




                       1201 New York Avenue, NW Suite 830, Washington, DC 20525
                          202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                           Senior Corps   AmeriCorps   Learn and Serve America
                                                  TABLE OF CONTENTS



Results in Brief ................................................................................................................................1

Objectives and Scope of Audit ........................................................................................................2

Background ......................................................................................................................................4

Independent Auditor’s Report..........................................................................................................5

Consolidated Schedule of Award Costs...........................................................................................7

Schedule A - Claimed and Questioned Costs (03ACHMD001)......................................................9

Schedule B - Claimed and Questioned Costs (03AFHMD001) ....................................................11

Schedule C - Claimed and Questioned Costs (01SCSMD020 & 04CAHMD001) .......................14

Schedule D – Claimed and Questioned Costs (01LCSMD021) ...................................................17

Independent Auditor’s Report on Compliance and Internal Controls ...........................................19

Compliance Findings .....................................................................................................................19

Internal Control Over Financial Reporting ....................................................................................25

Responses to Report

     Maryland Governor’s Office on Service and Volunteerism ....................................Appendix A

     Corporation for National and Community Service.................................................. Appendix B
416 Hungerford Drive, Suite 4W
RockviUe, Maryland 20850
301-738-6190
fax:301-738-8210
leonsnead.companyp&mk.c~~
              Office of Inspector General
              Corporation for National and Community Service
              Washington, DC 20525

              This report is issued by Leon Snead and Company, P.C., under an engagement with the
              Office of Inspector General (OIG) to audit the costs incurred by the Maryland Governor's
              Office on Service and Volunteerism (GOSV) and its subgrantees &om October 1, 2003,
              through December 31, 2005, under grants awarded by the Corporation for National and
              Community Service (Corporation). The report addresses the costs questioned as a result of
              the audit; instances of noncompliance with Federal laws, regulations or award conditions;
              and weaknesses disclosed in the internal control systems of GOSV and its subgrantees.

                                                    Results in Brief

              As a result of our audit, we have questioned costs amounting to $818,673, including
              $461,086 in grant costs, $195,327 in matching costs, and $162,260 in education awards. A
              total of $5.8 million in costs were claimed by GOSV. A questioned cost is: (1) an alleged
              violation of a provision of law, regulation, contract, grant, cooperative agreement, or other
              agreement or document governing the expenditure of funds; (2) a finding that, at the time of
              the audit, such cost is not supported by adequate documentation; or (3) a finding that the
              expenditure of funds for the intended purpose is unnecessary or unreasonable. The costs
              were questioned for the following reasons.

                  * Unsupported member eligibility costs ($305,530)
                      Ineligible education awards ($162,260)
                      Unsupported matching costs ($195,327)
                      Unallowable costs ($155,556)

              We used non-statistical sampling to test the costs claimed by GOSV for compliance with its
              award agreements with the Corporation and other Federal requirements. Based on this
              sampling, questioned costs detailed in this report may not represent total costs that may have
              been questioned had all expenditures been tested. In addition, we made no attempt to project
              such questioned costs to total costs claimed.



              Our review of GOSV compliance with Federal laws, applicable regulations and award
              conditions disclosed the following instances of noncompliance:
   •   GOSV did not submit four final Financial Status Reports (FSRs) in a timely manner
       and did not submit semi-annual FSRs for 20 grants as specified in the AmeriCorps
       Provisions.

   •   Six of the AmeriCorps subgrantees reviewed had one or more member files that did
       not contain all required documentation to support their members’ eligibility for
       participation or to meet other program requirements. The missing or incomplete
       documents included:
           i      Proof of eligibility;
           ii.    Criminal background check;
           iii.   Mid-term & final evaluations;
           iv.    Member timesheets;
           v.     Prorating of education awards; and
           vi.    Termination of a member.

                                       Internal Controls

Our review disclosed three areas of weakness in the internal control systems of GOSV. The
weaknesses noted are:

   •   GOSV did not have a system in place to accurately accumulate and summarize
       expenditures chargeable to its administrative grants;

   •   GOSV did not have procedures in place to prepare and submit accurate FSRs; and

   •   GOSV did not always reconcile data reported in FSRs with data recorded in its
       financial management system.

                                 Objectives and Scope of Audit

The objectives of our audit were to determine whether:

   •   FSRs prepared by GOSV presented fairly the financial results of the awards;
   •   GOSV internal controls were adequate to safeguard Federal funds;
   •   GOSV and its subgrantees had adequate procedures and controls to ensure
       compliance with Federal laws, applicable regulations, and award conditions;
   •   Award costs reported to the Corporation by GOSV were documented and allowable
       in accordance with the award terms and conditions; and
   •   GOSV had established adequate oversight procedures and had informed subgrantees
       of the Corporation’s Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the costs claimed against the awards, as presented in the Consolidated Schedule of



                                              2
Award Costs, are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the Schedules. An audit also includes
assessing the accounting principles used and significant estimates made by the GOSV
management, as well as evaluating the overall financial schedule presentation. Our audit
included reviews of audit reports prepared by independent public accountants for GOSV and
its subgrantees in accordance with the requirements of the Office of Management and Budget
(OMB) Circular A-133, Audits of States, Local Governments and Non-profit Organizations.

With regard to GPRA, the grantee and subgrantees provided progress reports to the
Corporation that were maintained in the Web-Based Reporting System (WBRS). The
Corporation developed program-reporting guidelines that were derived from its Federal
reporting requirements. GOSV does not make continuation grants available to subgrantees
that do not meet program objectives, unless extenuating circumstances prevented subgrantees
from meeting those objectives. Evaluation reports from consultants or other sources are
utilized to monitor and assess program accomplishments. In summary, the monitoring
process appears to be operating as intended.

                                  Teach for America Qualification

The Teach for America National Office allocates some of its program operation cost to 22
regional offices. Cost allocated to the Baltimore Regional Office for 2004 and 2005 were
$107,083 and $58,223, respectively. The costs allocated to the Baltimore office were not
tested because they represent a small percentage of the total cost allocated to regional offices.
The national pool will be audited later to include cost allocated to all the regional offices.

                                       Grant Programs Audited

During the period of our audit, GOSV received about $8.6 million under 10 Corporation
grant awards and distributed most of the funds to subgrantees. The majority of the GOSV
subgrantees are nonprofit organizations. About $5.8 million of the amount awarded was
claimed on GOSV’s FSRs. Here is a brief synopsis of programs funded by the grants:

                                                               Funding           Claimed
Program                                     Award No.         Authorized          Costs  Drawdowns
AmeriCorps Competitive                   03ACHMD001             $2,709,581       $2,247,229       $1,692,489
AmeriCorps Formula                       03AFHMD001              3,098,220        2,457,635        2,179,219
Administrative                           01SCSMD020                785,930           56,513           83,782
Administrative                           04CAHMD001                522,394          586,319*         448,275
Program Development and Training         02PDSMD020                362,854           27,952          177,500
Program Development and Training         05PTHMD001                155,000           65,371           54,675
Disability                               02DSCMD022                192,506           18,690           65,299
Disability                               04CDHMD001                109,420           53,393           20,769
Learn and Serve                          01LCSMD021                333,000          129,498           98,869
Homeland Security                        02AHHMD021                303,234          116,590          117,982
Totals for Grants Administered by GOSV**                        $8,572,139       $5,759,190       $4,938,859

*   The total cumulative cost reported on FSRs was $499,733 (See Internal Control Finding No. 6 for details).




                                                    3
** The differences between the amounts claimed and the amounts drawn down are generally due to timing
   issues. Some subgrantees do not request payments from GOSV on a timely basis. For some of the grants,
   the differences occurred because the claimed costs represent the last three months of activity for the grants
   while the drawdowns are for costs incurred prior to our audit period.

Our audit of costs claimed by GOSV under these awards disclosed the following:

                                                                                     Percentage of
                                                            Amount
                                                                                    Award/Claimed
      Award Budget                                         $8,572,139                          -
      Claimed Costs                                         5,759,190                     67.2%
      Questioned Grant Costs                                  461,086                      8.0%
      Questioned Education Awards                             162,260

                                                Background

The Corporation for National and Community Service, pursuant to the authority of the
National and Community Service Trust Act, as amended, awards grants and cooperative
agreements to State commissions and other entities to assist in the creation of full- and part-
time national and community service opportunities and programs. The Governor’s Executive
Order No. 01.01.1998.08, dated February 10, 1998, established the Governor’s Office on
Service and Volunteerism (GOSV). It is charged with involving appropriate State agencies
and nonprofit organizations in planning, implementing and evaluating volunteerism and
service in the State of Maryland.

The contents of this report were disclosed to and discussed with GOSV at an exit conference
held on July 19, 2006. Commission and Corporation responses to this report are included as
Appendices A and B, respectively.




                                                     4
                                                                                                 Certified Public Aemunfnnts
LEON SNEAD                                                                                        &Management Consultants
& COMPANY, PC.
416 Hungerford Drive, Suite 400
RockviUe, Maryland 20850
301-738-8190
fax:301-738-8210
leonsnead.companyp@~ols.com

              Office of Inspector General
              Corporation for National and Community Service
              Washington, DC 20525


                                        INDEPENDENT AUDITOR'S REPORT

             We have audited the costs incurred by the Maryland Governor's Office on Service and
             Volunteerism (GOSV) for the award numbers listed below. These costs, as presented in the
             Consolidated Schedule of Award Costs, are the responsibility of the GOSV management.
             Our responsibility is to express an opinion on the Consolidated Schedule of Award Costs
             based on our audit.

              Program                                Award No.         Award Period         Audit Period*
             AmeriCorps Competitive
             AmeriCorps Formula
             Administrative
             Administrative
             Program Development and Training
             Program Development and Training
             Disability
             Disability
             Learn and Serve
             Homeland Security

              *   The audit period ended for each award on the grant expiration date or the date of the most
                  recent FSR for the grant, whichever occurred earlier.

             We conducted our audit in accordance with auditing standards generally accepted in the
             United States of America, and in accordance with generally accepted government auditing
             standards. Those standards require that we plan and perform the audit to obtain reasonable
             assurance about whether the amounts claimed against the awards, as presented in the
             Consolidated Schedule of Award Costs and supporting Schedules A-D, are kee of material
             misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
             and disclosures in the Schedules. An audit also includes assessing the accounting principles
             used and significant estimates made by the management, as well as evaluating the overall
             financial schedule presentation. We believe our audit provides a reasonable basis for ow
             opinion.
The accompanying Schedules were prepared to present the costs claimed by GOSV and its
subgrantees between October 1, 2003, and December 31, 2005, under 10 grants awarded by
the Corporation, as described in the accompanying Summary of Significant Accounting
Policies. The Schedules were prepared from data GOSV submitted to the Corporation on
Financial Status Reports to comply with provisions of the grant agreements. The Schedules
are not intended to be a complete presentation of GOSV finances in accordance with
accounting principles generally accepted in the United States of America.

As more fully described in the Schedules, we have questioned costs amounting to $818,673,
including $461,086 in grant costs, $195,327 in matching costs, and $162,260 in education
awards. A questioned cost is: (1) an alleged violation of a provision of law, regulation,
contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of hnds; (2) a fmding that, at the time of the audit. such cost is not supported by
adequate documentation; or (3) a finding that the expenditure of funds for the intended
purpose is unnecessary or unreasonable. The terms of the grant agreement require that all
specified supporting documents be retained in order to receive payment from the
Corporation.

In our opinion, except for the costs we have questioned above, the Consolidated Schedule of
Award Costs presents fairly, in all material respects, the costs incurred and reported on
GOSV's Financial Status Reports for the period October 1, 2003, to December 31, 2005, in
accordance with OMB Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, other applicable OMB circulars and award terms and conditions.

In accordance with the generally accepted government auditing standards, we have also
issued our Independent Auditor's Report, dated May 19, 2006, on compliance with Federal
laws, regulations, and significant provisions of grant agreements, and on internal control over
financial reporting. That report is an integral part of an audit performed in accordance with
generally accepted government audit standards and should be read in conjunction with this
report in considering audit results.

This report is intended for the information and use of the Office of Inspector General, the
Corporation for National and Community Service, GOSV and its subgrantees, and the U.S.
Congress.




Rockville, Maryland
May 19,2006
                    Corporation for National and Community Service
              Maryland Governor’s Office on Service and Volunteerism
                      Consolidated Schedule of Award Costs


                                                                      Questioned
                               Approved     Claimed                                Education
  Award No.   Program           Budget       Costs        Costs       Match         Awards     Schedule
03ACHMD001    AmeriCorps
              Competitive      $2,709,581   $2,247,229    $ 78,277                  $18,885       A
03AFHMD001    AmeriCorps
              Formula           3,098,220    2,457,635     240,234                  143,375       B
01SCSMD020    Administrative      785,930       56,513       6,058    $ 25,535                    C
04CAHMD001    Administrative      522,394      586,319     128,344    169,792                     C
02PDSMD020    Program
              Development
              and Training       362,854         27,952
05PTHMD001    Program
              Development
              and Training       155,000         65,371
02DSCMD022    Disability         192,506         18,690
04CDHMD001    Disability         109,420         53,393
              Learn and
01LCSMD021    Serve              333,000        129,498      8,173                                D
02AHHMD021    Homeland
              Security            303,234      116,590    ________    _______      _______
    Totals                     $8,572,139   $5,759,190     $461,086   $195,327     $162,260



Summary of Significant Accounting Policies

Reporting Entity

The Consolidated Schedule of Award Costs includes amounts budgeted, claimed, and
questioned under AmeriCorps, Homeland Security Special Volunteer Program, Learn and
Serve, Administrative, and Program Development and Training and Disability grants
awarded to GOSV by the Corporation for the period October 1, 2003, through December 31,
2005.

The GOSV awards its AmeriCorps grant funds to numerous subgrantees that administer the
AmeriCorps Program and report financial and programmatic results to GOSV.




                                            7
Continued Summary of Significant Accounting Policies

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and GOSV. The information presented in the Schedule
has been prepared from financial reports submitted by GOSV to the Corporation. The basis
of accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected
in the Consolidated Schedule of Award Costs include the cost of equipment purchased during
the period rather than a provision for depreciation. The equipment is owned by GOSV and is
used in the program for which it was purchased or in other future authorized programs.
However, the Corporation has a reversionary interest in the equipment. The disposition as
well as the ownership of any proceeds therefore is subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.




                                             8
                                                                                         Schedule A


                  Maryland Governor’s Office on Service and Volunteerism
                        Schedule of Claimed and Questioned Costs
                   Award No. 03ACHMD001 (AmeriCorps Competitive)
                       August 13, 2003, through September 30, 2005


                                                                      Questioned
                                Budgeted               Claimed               Education
Subgrantees                        Costs                 Costs     Costs      Awards         Notes
Civil Works, Inc.               $589,039                $559,461         0
Salisbury State University        805,664                612,885   $73,804    $14,175          1
Teach for America                 604,681                586,239     4,473                     2
Volunteer Maryland                396,580                304,576         0      4,710          3
 Sub-Total                     $2,395,964             $2,063,161   $78,277    $18,885
Others                            313,617                184,068         0           0
 Total                         $2,709,581             $2,247,229   $78,277    $18,885



                                  Categories of Questioned Costs

    •   Eligibility requirement not supported by documentation          $73,804
    •   Ineligible Education awards                                      18,885
    •   Unallowable costs                                                 4,473
          Total                                                         $97,162



NOTES:

    1. A review of 75 member files at Salisbury State University disclosed that 21 members
       were ineligible to serve in the program because there was no documentation in the
       files to show proof of U.S. citizenship or lawful permanent resident alien status.
       Salisbury State University accepted driver’s licenses and Social Security cards, which
       are not considered as adequate documentation, as proof of citizenship for these
       members. After the exit conference, GOSV provided us with legible birth certificates
       or other acceptable documents to support the eligibility of 5 of the 21 members
       questioned. As a result, we are now questioning the living allowances totaling
       $73,804 that was paid to the 16 members. Also, we are questioning the education
       awards for these members.

        AmeriCorps Provisions, effective July, 2003, A(14)(b), Definitions, Member, state
        that a member must be a an individual “who is a U.S. citizen, U.S. national or lawful
        permanent resident alien of the United States” and B(6)(a) Eligibility, Recruitment,
        and Selection, Eligibility to Enroll, state that a grantee may select as a member only
        those who are eligible to enroll in AmeriCorps. In order to be eligible, an individual
        must meet the statutory requirements of the definition of a member.


                                                  9
2. Teach for America could not provide documentation to support $4,473 in
   expenditures reported on its final periodic expense report and claimed for
   reimbursement in program year 2003/2004. For the program year, the subgrantee
   claimed expenditures of $292,942; however, the general ledger showed a total of
   $288,469 in expenditures. As a result, we have questioned $4,473.

   AmeriCorps Provisions, effective July 2003, C(22)(a), Financial Management
   Provisions, General, state that “financial management systems must be capable of
   distinguishing expenditures attributable to this Grant from expenditures not
   attributable to this Grant.” In addition, OMB Circular A-110, Uniform Administrative
   Requirements for Grants and Agreements with Institutions of Higher Education,
   Hospitals, and Other Non-Profit Organizations, Subpart C(21)(b)(1), Financial and
   Program Management, Standards for financial management systems, requires
   accurate, current, and complete disclosure of the financial results of each federally-
   sponsored project or program.

3. A review of 50 member files at Volunteer Maryland disclosed that three members
   were improperly awarded pro-rated education awards. The three slots for the
   members were for full-time positions; however, the members did not serve the
   minimum required 1,700 hours. In two instances, Volunteer Maryland had
   improperly recorded the members in WBRS as part-time rather than full-time
   members. When the two members completed 920 and 1,023 service hours,
   respectively, they were awarded pro-rated full-time education awards. In the other
   case, the subgrantee did not follow established procedures in reclassifying a full-time
   member as half time, but awarded the member a pro-rated full-time education award
   based on 1,452 service hours at the completion of the member’s term of service. As a
   result, we have questioned the pro-rated education awards totaling $4,710 for the
   three members.

   AmeriCorps Provisions, effective July, 2003, B(8)(g), Terms of Service, Changing
   Slot Types (unfilled positions), provide that grantees and subgrantees may change the
   type of slots awarded to their programs, with prior approval from the Corporation, if
   the change does not increase the total number of slots authorized and the change does
   not increase the total full time equivalents (FTEs) authorized. In addition, B(8)(h)
   provides that State commissions may approve occasional changes of currently
   enrolled full-time members to less than full-time within the first 90-days of the
   member’s service, but it is not allowable to transfer currently enrolled full-time
   members to less than full-time status simply to provide less than full-time education
   awards. State commissions must forward all changes and appropriate forms to the
   Corporation after approval. Any request for changes that fall outside of the
   parameters must be approved in writing by the Corporation.




                                       10
                                                                                              Schedule B


                   Maryland Governor’ Office on Service and Volunteerism
                         Schedule of Claimed and Questioned Costs
                     Award No. 03AFHMD001 (AmeriCorps Formula)
                      September 26, 2003, through September 25, 2005


                                                                         Questioned
                                     Budgeted          Claimed                 Education
Subgrantees                             Costs           Costs        Costs      Awards          Notes
Civic Works, Inc.                    $ 472,780         $ 440,486
Volunteer Maryland                     221,971           221,971                    $ 8,713       4
Maryland Department of Natural
  Resources                            380,667            375,823    $231,726       134,662       5
Frostburg State University             276,626            241,504       1,117                     6
Maryland Institute College of Art      211,200            211,200       7,391   _______           7
  Sub-Total                         $1,563,244         $1,490,984   $240,234    $143,375
Others                               1,534,976            966,651           0          0
  Total                             $3,098,220         $2,457,635   $240,234    $143,375



                                    Categories of Questioned Costs

    •   Eligibility requirement not supported by documentation           $231,726
    •   Ineligible education award                                        143,375
    •   Unallowable costs                                                   8,508
          Total                                                          $383,609



NOTES:

    4. A review of 50 member files at Volunteer Maryland disclosed that two of the
       members who served in the program during program year (PY) 2003/2004 and
       received pro-rated education awards were ineligible for the awards. The members
       were shown in WBRS as full-time members; however, they did not serve the
       minimum 1,700 hours required to earn the awards. On the members’ exit forms, the
       subgrantee made notations to indicate that the members were released from the
       program early for compelling reasons, which allowed for pro-rated education awards.
       However, the specific reasons given by the members for leaving the program were to
       return to school and to obtain employment. In these two cases, Volunteer Maryland
       granted pro-rated education awards based on reasons that did not meet the compelling
       personal circumstances criteria outlined in the AmeriCorps provisions. Therefore, we
       have questioned the pro-rated education awards of $8,713 made to the two members.

        AmeriCorps Provisions, effective July, 2003, B(9)(a), Release From Participation,
        Compelling Circumstances, state that “compelling personal circumstances do not
        include leaving a program: i. To enroll in school; ii. To obtain employment, other


                                                  11
   than in moving from a welfare to work or in leaving a program that includes in its
   approved objectives the promotion of employment among its members….”

5. A review of 38 member files at the Maryland Department of Natural Resources
   disclosed that 29 members were ineligible to serve in the program. The subgrantee
   did not obtain proper documentation from the members to show proof of U.S.
   citizenship or lawful permanent resident alien status. The Maryland Department of
   Natural Resources accepted driver’s licenses and Social Security cards, which are not
   considered adequate documentation, as proof of citizenship for its members. As a
   result, we are questioning the living allowances of $231,726 made to the 29 members.
   Also, we are questioning the education awards of $134,662 for these members.

   AmeriCorps Provisions, effective July, 2003, A(14)(b) Definitions, Member, state that
   a member must be a an individual “who is a U.S. citizen, U.S. national or lawful
   permanent resident alien of the United States,” and B(6)(a) Eligibility, Recruitment,
   and Selection, Eligibility to Enroll, state that a grantee may select as a member only
   those who are eligible to enroll in AmeriCorps.

6. A review of 10 member files at Frostburg State University disclosed that one member
   received a living allowance as a full-time member for the duration of her term of
   service even though she was unable to complete her term-of-service obligation. The
   member was given a pro-rated education award at the end of her term of service
   based on compelling personal circumstances due to giving birth to a child and child
   care needs. The files indicated that, after the birth of her child, the member was
   unable to meet her service hour obligation, but action was not taken by the subgrantee
   to suspend or terminate the member. Therefore, we are questioning the $1,117 in
   living allowances given to the member after she became unable to complete her
   obligation.

   AmeriCorps Provisions, effective July, 2003, B(8)(a), Term of Service, Program
   Requirements, state that full-time members must serve at least 1,700 hours during a
   period of not less than nine months and not more than one year. In addition,
   B(11)(b), Living Allowances, Other In-Service Benefits and Taxes, Living Allowance
   Distribution, state that the living allowance is designed to help members meet the
   necessary living expenses incurred while participating in the AmeriCorps Program.

7. The Maryland Institute College of Art overstated the expenditures charged to its grant
   in PY 2003/2004 for staff salaries and benefits. The subgrantee erroneously charged
   its staff salaries and benefits for the last payroll period of the grant year to both the
   PY 2003/2004 grant and to the PY 2004/2005 grant. The expenditures should have
   been charged to only the PY 2004/2005 grant. Therefore, we have questioned the
   $7,391 in salary and benefits charged to the PY 2003/2004 grant.

   AmeriCorps Provisions, effective 2004, C(22)(a), Financial Management Provisions,
   General, state that “the Grantee must maintain financial management systems that
   include standard accounting practices, sufficient internal controls, a clear audit trail



                                        12
and cost allocation procedures as necessary. Financial management systems must be
capable of distinguishing expenditures attributable to this Grant from expenditures
not attributable to this Grant.” In addition, C(22)(b), Source Documentation, state
“the Grantee must maintain adequate supporting documents for its expenditures
(federal and non-federal) and in-kind contributions made under this Grant. Costs
must be shown in books or records [e.g., a disbursement ledger or journal], and must
be supported by a source document, such as a receipt, travel voucher, invoice, bill, in-
kind voucher, or similar document. OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations, Subpart C(21)(b)(1), Financial and
Program Management, Standards for financial management systems, requires
accurate, current, and complete disclosure of the financial results of each federally-
sponsored project or program.




                                    13
                                                                                        Schedule C


                    Maryland Governor’s Office on Service and Volunteerism
                          Schedule of Claimed and Questioned Costs
                       Award No. 01SCSMD020 (Administrative grant)
                            April 1, 2001, through March 31, 2005
                       Award No. 04CAHMD001 (Administrative grant)
                           April 1, 2004, through December 31, 2005
         .

                                            Budgeted        Claimed          Questioned
Program                                       Costs           Costs             Costs       Notes
01SCSMD020 (Administrative)                 $ 785,390       $ 56,513          $ 31,593*        8
04CAHMD001 (Administrative)                   522,394       586,319           298,136**     8, 9, 10
  Total                                    $1,307,784      $642,832           $329,729***

*   Of the questioned costs, $6,058 was charged to Federal share and $25,535 was charged as match.
**  Of the questioned costs, $128,344 was charged to Federal share and $169,792 was charged as
    match.
*** Of the total questioned, $134,402 was charged to Federal share and $195,327 was charged as
    match.


                                    Categories of Questioned Costs

     •   Match not supported by documentation                          $195,327
     •   Unallowable costs                                              134,402
           Total                                                       $329,729



NOTES:

     8. GOSV initially charges its administrative grants for all salaries and fringe benefits of
        GOSV employees who provide support to the AmeriCorps program. Then, about every
        six months, GOSV utilizes its grant allocation timesheets to adjust the administrative
        grants by reallocating applicable costs to the PDAT and disability grants, as well as, the
        portion allocable to the State’s matching share. During our audit period, five adjustments
        were made to reallocate salaries and fringe benefits.

         Our review of the five adjustments disclosed that the expenditures charged to the grants
         were overstated for the following reasons: (1) errors were made in transferring the hours
         worked from the timesheets to the allocation summary worksheets, (2) timesheets were
         missing for some employees, even though hours were recorded on the allocation
         summary worksheets, and (3) salaries and benefits were charged and allocated to the
         grants when the employee did not work and had no hours to allocate. As a result, we
         have questioned a total of $323,042 ($127,715 Federal share and $195,327 grantee
         matching costs) in salaries and benefits charged against the administrative grants. After


                                                14
   the exit conference, GOSV provided us with memorandums to certify that some of the
   questioned employees worked on the AmeriCorps Program; however, the memorandums
   did not meet the requirements of the OMB Circular for timeliness and/or the employees
   worked on multiple activities or cost objectives. The questioned costs, therefore, have
   not been removed from the report.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B.8.h.(3), Compensation for personal services, Support of salaries and
   wages, requires that “where employees are expected to work solely on a single Federal
   award or cost objective, charges for their salaries and wages will be supported by
   periodic certifications that the employees worked solely on that program for the period
   covered by the certification. These certifications will be prepared at least semi-annually
   and will be signed by the employee or supervisory official having first hand knowledge
   of the work performed by the employee.”

   In addition, OMB Circular A-87, Attachment B.8.h.(4), requires that “where employees
   work on multiple activities or cost objectives, a distribution of their salaries or wages will
   be supported by personnel activity reports or equivalent documentation….”

9. GOSV has an indirect cost rate approved by the cognizant Federal agency. The rate is
   applied to salary and benefits and the indirect costs are charged to the administrative
   grants monthly. As stated in Note 8, the administrative grants are initially charged with
   all of the salary and benefit costs for GOSV employees and adjustments are made after
   the fact to reallocate applicable costs to other grants and to the State matching account.
   Since the salary and benefit costs not attributable to the administrative grants are adjusted
   out of the grants, the indirect costs should also be adjusted to reflect the reduction in
   allowable costs to apply the indirect rate. The indirect cost rate should then be applied
   after the adjustments to reflect the actual indirect costs to be recovered. However, GOSV
   did not apply the indirect cost rate to the adjustments made in June 2004, resulting in an
   over-claim of $6,180. Therefore, we have questioned the $6,180 in over claimed indirect
   costs.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment A.C.3.a, Basic Guidelines, Allocable costs, states that “a cost is allocable to a
   particular cost objective if the goods or services involved are chargeable or assignable to
   such cost objective in accordance with relative benefits received.”

10. Our review disclosed that GOSV made a duplicate payment to a vendor for catering
    services and claimed the expenditure against its administrative grant. A catering bill for
    services provided on September 22, 2004, was submitted by the vendor twice and
    processed for payment by GOSV, resulting in an over-claim of $507. Therefore, we are
    questioning the duplicate payment of $507 claimed against the administrative grant.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment A.C.1, Basic Guidelines, Factors affecting allowability of costs, states that
   “to be allowable under Federal awards, costs must meet the following general criteria:



                                        15
a. Be necessary and reasonable for proper and efficient performance and administration
of Federal awards. b. Be allocable to Federal awards under the provisions of this
Circular. c. Be authorized or not prohibited under State or local laws or regulations….”




                                   16
                                                                                    Schedule D


                  Maryland Governor’s Office on Service and Volunteerism
                        Schedule of Claimed and Questioned Costs
                       Award No. 01LCSMD021 (Learn and Serve)
                         January 1, 2004, through March 31, 2004


                                         Budgeted        Claimed         Questioned
Program                                    Costs           Costs           Costs        Notes
01LCSMD021 (Learn & Serve)                $333,000       $129,498          $8,173        11


                               Categories of Questioned Costs

   •   Unallowable costs                                            $8,173



NOTES:

   11. Our review disclosed that GOSV did not have documentation in its files to support an
       expenditure of $8,173 charged to the Learn and Serve grant in calendar year 2004.
       GOSV had awarded two grants of $25,000 each to one subgrantee under the Learn and
       Serve Program. The first grant was awarded March 19, 2002, for the period January 1,
       2002, through December 31, 2002. On January 13, 2003, the grant ending date was
       extended to March 31, 2003. The second grant was awarded to the subgrantee on March
       19, 2003, for the period January 1, 2003, through March 31, 2004.

       On October 31, 2003, the subgrantee submitted the first invoices for both grants. The
       invoices were supported by separate progress reports that covered service periods through
       March 2003 for the first grant and through June 2003 for the second grant. On May 27,
       2004, the subgrantee submitted final invoices for each grant. The invoice for the first
       grant was for $8,173 and was for the service period April 1, 2003, through March 31,
       2004. This claim was for service that occurred after the grant expiration date. The
       invoice for the second grant was for $12,336 and was for the service period July 1, 2003,
       through March 31, 2004. The service periods for the two invoices overlapped between
       July 2003 and March 2004. Furthermore, the invoices were not supported by progress
       reports or other documentation to show that there was no duplication of costs during the
       overlapping service periods. Therefore, we have questioned the $8,173 in costs claimed
       under the first Learn and Serve Program grant made to the subgrantee.

       AmeriCorps Provisions, effective July, 2003, C(22)(a), Financial Management
       Provisions, General, state that “the Grantee must maintain financial management
       systems that include standard accounting practices, sufficient internal controls, a clear
       audit trail and cost allocation procedures as necessary. Financial management systems


                                          17
must be capable of distinguishing expenditures attributable to this Grant from
expenditures not attributable to this Grant.”         In addition, C(22)(b), Source
Documentation, states “the Grantee must maintain adequate supporting documents for its
expenditures (federal and non-federal) and in-kind contributions made under this Grant.
Costs must be shown in books or records [e.g., a disbursement ledger or journal], and
must be supported by a source document, such as a receipt, travel voucher invoice, bill,
in-kind voucher, or similar document.




                                   18
                                                                                                         Cerflfied Public Accountnnfs
LEON SNEAD                                                                                               a Management Consultants
& COMPANY, PC.
416 Hungerford Dmve, Suite 400
R o c m e , Maryland 20850
301-738-8190
fax: 301-738-8210
1eonsnead.companyp~emIs.com
         Office of Inspector General
         Corporation for National and Community Service
         Washington, DC 20525


               INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                           CONTROLS OVER FINANCIAL REPORTING

         We have audited the Consolidated Schedule of Award Costs that summarize the claimed costs of
         the Maryland Governor's Office on Service and Volunteerism (GOSV) under the Corporation
         awards listed below, and have issued our report thereon, dated May 19, 2006.

         Program                                  Award No.            Award Period             Audit Period*
         AmeriCorps Competitive                 03ACHMD001            08113103-09130105      10/01/03-09/30105
         AmeriCorps Formula                     03AFHMD001            09126103-09125105      10101103-09125105
         Administrative                         01SCSMD020            0410 1/01-03131104     01/01/04-03131104
         Administrative                         04CAHMDOOl            04/01/04-12131105      0410 1104-12131105
         Program Development and Training       02PDSMD020            0410 1/02-03131105     01101104-03131105
         Program Development and Training       05PTHMDOOl            04101105-03131/07      04101105-12131105
         Disability                             02DSCMD022            0410 1/03-03131/05     01101104-03131105
         Disability                             04CDHMDOOl            0410 1104-03131/07     04101104-12131105
         Learn and Sene                         OlLCSMD021            0910 1102-03M1104      01101104-03131104
         Homeland Security                      02AHHMD021            09116103-09115106      10101103-09130105
         *   The audit period ended for each award on the grant expiration date or the date of the most recent financial
             status report for the grant, whichever was earlier.

         We conducted our audit in accordance with auditing standards generally accepted in the United
         States of America and generally accepted government auditing standards.

                                                       COMPLIANCE

         Compliance with Federal laws, regulations, and the provisions of the awards is the responsibility of
         GOSV's management. As a part of obtaining reasonable assurance about whether the financial
         schedules are fi-ee of material misstatement, we performed tests of compliance with certain
         provisions of laws, regulations, and the terms and conditions of the awards, noncompliance with
         which could have a direct and material effect on determination of the financial schedule amounts.
         However, our objective was not to provide an opinion on overall compliance with such provisions.
         Accordingly, we do not express such an opinion. The results of our tests of compliance disclosed
         the following instances of noncompliance that are required to be reported under generally accepted
         government auditing standards.
Finding No. 1 – Grants Were Not Closed and FSRs Were Not Submitted in a Timely Manner

GOSV needs to improve its financial management controls to ensure that FSRs are submitted to the
Corporation in accordance with the established timeframes. During our audit period, GOSV should
have submitted 27 semi-annual and final reports. Our review showed that only three were
submitted by their due dates. Four of the FSRs represented final reports needed by the Corporation
to close out expired grants, and 20 were the grantee’s semi-annual submissions. The grants with
late submissions are listed below.
                                      Type of
                                    Submission        Date Due       Date Submitted
01LCSMD021 Learn and Serve            Final           06/30/04       01/25/05
01SCSMD020 Administrative             Final           06/30/04       11/09/04
02DSCMD022 Disability                 Final           06/30/05       Not Submitted as of 05/19/06
02PDSMD020 PDAT                       Final           06/30/05       10/31/05
02DSCMD022 Disability                 Semi            04/30/04       09/15/04
02DSCMD022 Disability                 Semi            10/31/04       Not Submitted as of 05/19/06
02DSCMD022 Disability                 Semi            04/30/05       Not Submitted as of 05/19/06
02PDSMD020 PDAT                       Semi            01/31/05       03/14/05
03AFHMD001 Formula                    Semi            04/30/04       03/17/05
03AFHMD001 Formula                    Semi            10/31/04       03/17/05
03AFHMD001 Formula                    Semi            04/30/05       12/20/05
03AFHMD001 Formula                    Semi            10/31/05       12/20/05
03ACHMD001 Competitive                Semi            04/30/04       03/15/05
03ACHMD001 Competitive                Semi            10/31/04       03/15/05
03ACHMD001 Competitive                Semi            04/30/05       08/18/05
03ACHMD001 Competitive                Semi            10/31/05       12/20/05
04CAHMD020 Administrative             Semi            01/31/05       03/14/05
04CAHMD020 Administrative             Semi            07/31/05       10/31/05
04CAHMD020 Administrative             Semi            01/31/06       03/03/06
04CDHMD001 Disability                 Semi            01/31/05       02/22/05
04CDHMD001 Disability                 Semi            07/31/05       10/31/05
04CDHMD001 Disability                 Semi            1/31/06        03/03/06
05PTHMD001 PDAT                       Semi            07/31/05       10/31/05
05PTHMD001 PDAT                       Semi            01/31/06       03/03/06

Financial accountability controls and grant monitoring at the Corporation level are weakened when
final financial reports are not submitted in a timely manner. Timely accounting is needed to ensure
that grant funds are being spent for the intended purposes, and in accordance with grant conditions.
When accounting controls are weakened, the potential for of waste, fraud and abuse is increased.

AmeriCorps Provisions, B(16)(a)(iii), Reporting Requirements, Final Financial Status Reports,
state that a grantee completing the final year of its grant must submit, in lieu of the last semi-annual
FSR, a final FSR that is cumulative over the entire project. It must be submitted within 90 days
after the end of the grant. For the Administrative, PDAT and Disability grants, the Provisions for
Program Development and Training, Disability Placement and State Administrative Awards,


                                             20
B(5)(a), Reporting Requirements, Financial Status Reports, state that the grantee shall submit semi-
annual cumulative financial reports by July 31 and January 31, that summarize expenditures during
the reporting period.

GOSV representatives stated they had experienced technical problems during the conversion to the
Corporation’s eGrant reporting system and that some of the reports may have been submitted
earlier.

Recommendation

The Corporation should ensure that GOSV places a higher priority on reconciling and submitting
FSRs within the stipulated time periods and requests, in writing, extensions to its grants when
formal closeout cannot be completed within the required time periods.

GOSV’s Response

Although GOSV stated in its response that the dates in the report were not always the initial
submission dates for the FSRs, it agreed with the recommendation and will implement a system to
ensure timely reporting.

Auditor’s Comments

The Corporation should obtain assurance from GOSV that an effective system has been
implemented and that the reports are now prepared and submitted in a timely manner.

Finding No. 2 - Subgrantee Files Were Not Always In Compliance With Program
Requirements

We reviewed 242 member files at seven subgrantees and found the following types of exceptions:

                                                                    Exceptions
                                                             Timesheets Improperly
                              Member      Mid-    Failure to Submitted   Approved
                                Files  Term/Final Terminate Late or Late Education Background   Eligibility
        Subgrantees           Reviewed Evaluation Member      Approval    Awards     Checks   Documentation

 Civic Works, Inc.              28         10

 Salisbury State University      75                                                                21

 Teach for America               28                            14

 Volunteer America               50                                        5
 Maryland Dept.
 of Natural Resources            38                                                    1           29

 Frostburg State University     10                     1
 Maryland Institute College
 of Arts                         13
  Totals                        242        10          1       14          5           1           50



                                                  21
•   Mid-Term/Final Evaluations - Program/site supervisors had not prepared mid-term and/or
    end-of-term performance evaluations for 10 members. As a result, the members may not
    have been aware of deficiencies in their performance, areas in need of improvement, or the
    number of hours needed to complete their assignments. Proper attention was not given to
    evaluations by site supervisors and management did not provide adequate oversight.
    AmeriCorps Provisions, B(7)(g), Training, Supervision, and Support, Performance Reviews,
    require mid-term and end-of-year performance evaluations of members that focus on
    whether the member has (1) completed the required number of service hours, (2)
    satisfactorily completed assignments, and (3) met other performance criteria that were
    communicated at the beginning of the term of service.

•   Termination of Member – One subgrantee allowed a member to receive a living allowance
    as a full-time member for the duration of her term of service even though she became unable
    to meet her service hour obligation. The member was given a pro-rated education award at
    the end of her term of service based on compelling personal circumstances due to giving
    birth to a child and child care. The files showed that, after the birth of the child, the member
    was unable to meet her service hour obligation, but action was not taken by the subgrantee
    to suspend or terminate the member. AmeriCorps Provisions, B(11)(b), Living Allowances,
    Other In-Service Benefits and Taxes, Living Allowance Distribution, state that the living
    allowance is designed to help members meet the necessary living expenses incurred while
    participating in the AmeriCorps Program.

•   Timeliness of Timesheets - The timesheets for 14 members at one subgrantee were either
    not turned in to the supervisors in a timely manner or the supervisors did not approve them
    in a timely manner. As a result, these timesheets become vulnerable to tampering or
    improper reporting of service hours. AmeriCorps Provisions, B(22)(c)(ii), Time and
    Attendance Records, AmeriCorps Members, require time and attendance records on all
    members in order to document their eligibility for benefits.

•   Pro-rated Education Awards – Five members were improperly awarded pro-rated education
    awards by one subgrantee. The member slots were full-time positions; however, they did
    not serve the minimum required 1,700 hours and were ineligible to receive their pro-rated
    education awards. AmeriCorps Provisions, effective 2004, B(8)(g), Terms of Service,
    Changing a Term of Service (unfilled positions), provide that grantees and subgrantees may
    change the type of slots awarded to their programs, with prior approval from the
    Corporation, if the change does not increase the total number of slots authorized and the
    change does not increase the total FTEs authorized. In addition, B(8)(h) provides that State
    commissions may approve occasional changes of currently enrolled full-time members to
    less than full-time within the first 90-days of the member’s service, but it is not allowable to
    transfer currently enrolled full-time members to less than full-time status simply to provide
    less than full-time education awards. State commissions must forward all changes and
    appropriate forms to the Corporation after approval. Any request for changes that fall
    outside of the parameters must be approved in writing by the Corporation. AmeriCorps
    Provisions, effective 2004, B(9)(a), Release From Participation, Compelling Circumstances,
    state that “compelling personal circumstances do not include leaving a program: i. To enroll
    in school; ii. To obtain employment, other than in moving from a welfare to work or in



                                         22
       leaving a program that includes in its approved objectives the promotion of employment
       among its members.”

   •   Criminal Background Checks – Documentation of a criminal records check was not
       provided for one member. AmeriCorps Provisions, B(6)(h), Eligibility, Recruitment and
       Selection, Criminal Record Checks, state that “programs with members or employees who
       have substantial direct contact with children (as defined by state law) or who perform
       service in the homes of children or individuals considered vulnerable by the program, shall,
       to the extent permitted by State and local law, conduct criminal record checks on these
       members or employees as part of the screening process.” This provision also states that
       documentation of criminal record checks must be maintained consistent with state law.

   •   Eligibility Documentation – Fifty members did not provide acceptable documentation of
       citizenship or permanent resident status, a requirement for participation in the program. The
       members served at two subgrantees that improperly accepted driver’s licenses and Social
       Security cards as proof of citizenship. AmeriCorps Provisions, B(14)(b), Member Records
       and Confidentiality, Verification, require that the subgrantee maintain verifiable records that
       document each member’s eligibility to serve pursuant to the member eligibility requirement.

Based on our review of member files, GOSV could not always verify that its members met the
eligibility requirements as outlined in the AmeriCorps provisions. In order to ensure that grant
funds are used for the purpose intended, it is important to verify that only qualified members have
been allowed to serve. Also, allowing a member to serve who has not had a criminal background
check and who has substantial contact with children can place these children at risk.

These conditions occurred because: 1) program managers did not always adequately document
members eligibility, 2) subgrantees were not provided with clear guidance on the eligibility
requirements and 3) members did not always provide the required information during the
enrollment process. As part of its monitoring requirements, GOSV is responsible for ensuring that
subgrantees are adequately trained in programmatic provisions and procedures to ensure that
members are eligible to serve, are paid support costs in accordance with AmeriCorps provisions,
and have met all eligibility requirements for education awards.

Recommendations

The Corporation should provide assistance as necessary to assure that GOSV:

   1. Trains and monitors all of its subgrantees on obtaining complete documentation of member
      eligibility before enrollment and on maintaining all required documentation in individual
      member’s files. Specifically, we recommend that GOSV ensure that subgrantees:

       •      Adequately document and ensure member citizenship and/or legal residency.

       •      Comply with grant requirements for conducting member evaluations, providing
              education awards, completing timesheets, and retaining documentation.



                                            23
       •       Record member hours in a timely manner, accurately and in accordance with
               program provisions.

    2. Provide guidance as necessary to subgrantees on the need to conduct timely criminal
       background checks, as part of the screening process, on those members who have substantial
       contact with children (as defined by state law).

GOSV’s Response

GOSV responded to each of the issues noted in the finding and had the following comments:
(a) Mid-Term/Final Evaluations – GOSV concurred with the finding and will take action to comply
with the requirements for conducting member evaluations; (b) Termination of Member – GOSV did
not concur with the finding and contends that it was proper for the member to continue to receive a
living allowance as a full-time member for the duration of her term of service, even though she
became unable to complete her service obligation. GOSV stated that the circumstance was not
deliberate, but unforeseen; (c) Timeliness of Timesheets – GOSV will work with its subgrantees to
ensure that timesheets are completed, signed and approved in a timely manner; (d) Pro-rated
Education Awards – GOSV concurred with the finding; (e) Criminal Background Checks – GOSV
did not concur with the finding and contends that the member did not warrant a criminal
background check because of the setting in which the member was serving; and (f) Eligibility
Documentation – GOSV concurred with the finding and began requiring programs to collect birth
certificates as proof of citizenship in Program Year 2006/2007.

 Auditor’s Comments

GOSV disagrees with the questioned living allowance during a period of non-service while
requesting the Corporation change the grant provisions. The subgrantee concurs with this finding
and agreed to repay the living allowance. We continue to question the cost for noncompliance with
grant provisions and recommend the Corporation recover the cost.

The late member timesheet completion and late supervisor approval are reported as a
noncompliance with the grant provisions. We did not question the hours which could have resulted
in requirement deficiencies for education awards. We believe the term timely manner for
completion and approval of timesheets mean the day after the end of the labor period. Internal
control is enhanced the sooner the timesheets are ready for any further processing. Personnel
memory mistakes and other errors are less likely.

GOSV disagrees with the need for a background check because the member gives education
presentations at the zoo to children that are chaperoned by their parents. We disagree with GOSV’s
assessment that in these circumstances the children are not vulnerable. A member could be using
their position at the zoo to meet children.

The Corporation should assess the position taken by GOSV and the audit on the issues and
determine whether the proposed actions are adequate, or whether additional information or actions
are needed.




                                           24
                  INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of award costs as presented in the Consolidated Schedule of
Award Costs for the period October 1, 2003, through December 31, 2005, we considered GOSV’s
internal control in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial schedules and not to provide assurance on the internal control.
Accordingly, we do not express such an opinion.

GOSV’s management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies and procedures. The objective of internal
control is to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition. Internal control also provides
assurance that transactions are executed in accordance with management’s authorization and
recorded properly to permit the preparation of the financial schedules in accordance with accounting
principles generally accepted in the United States of America. Because of inherent limitations in
any internal control, errors or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the internal control to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

Our consideration of internal control would not necessarily disclose all matters of internal control
over financial reporting that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses. Under
standards established by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control. In our judgment, the significant deficiencies could adversely
affect GOSV’s ability to record, process, summarize and report financial data consistent with the
assertions made by management in the financial schedules. We noted the following matters that we
considered to be reportable conditions.

Finding No. 3 – Charges of Salaries and Benefits to the Administrative Grants Were Not
                Supported by Employee Timesheets

GOSV initially charges its Federal administrative grants the entire salaries and fringe benefits for all
GOSV employees that provide support to the AmeriCorps program operations. Then, about every
six months, GOSV utilizes its grant allocation timesheets to adjust the administrative grants by
reallocating applicable costs to the PDAT and disability grants, as well as, the portion allocable to
the State’s matching share. During our audit period, five adjustments were made to reallocate
salaries and fringe benefits.

Our review of the five adjustments disclosed that the expenditures charged to the grants were
overstated for the following reasons: (1) errors were made in transferring the hours worked from
the timesheets to the allocation summary worksheets, (2) timesheets were missing for some
employees, even though hours were recorded on the allocation summary worksheets, and (3)
salaries and benefits were charged and allocated to the grants when the employee did not work and


                                             25
had no hours to allocate. As a result, we have questioned a total of $323,042 ($127,715 Federal
share and $195,327 grantee matching costs) in salaries and benefits charged against the grants. The
weaknesses observed in this area appeared to be primarily the result of insufficient oversight. One
employee performed most of the tasks relating to this area with little or no assistance from others.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment
B.8.h.(3), Compensation for personal services, Support of salaries and wages, requires that “where
employees are expected to work solely on a single Federal award or cost objective, charges for their
salaries and wages will be supported by periodic certifications that the employees worked solely on
that program for the period covered by the certification. These certifications will be prepared at
least semi-annually and will be signed by the employee or supervisory official having first hand
knowledge of the work performed by the employee.” In addition, OMB Circular A-87, Attachment
B.11.h.(4), requires that “where employees work on multiple activities or cost objectives, a
distribution of their salaries or wages will be supported by personnel activity reports or equivalent
documentation….”

Recommendation

The Corporation should provide assistance as necessary to ensure that GOSV:

       1. Develops a process to accurately allocate and record charges to its grants for salaries and
          benefits.
       2. Requires its employees that work entirely on one program to certify at least semi-
          annually that they worked solely on that program.

GOSV’s Response

GOSV concurred with the recommendations and has taken action to address the findings. GOSV
stated in its response that the State’s budgeting and reporting systems would be used to accurately
allocate and record charges to its grants for salaries and benefits. Also, GOSV stated that
employees that worked entirely on one program would be required to certify at least semi-annually
that they worked solely on that program.

Auditor’s Comments
At the time of our review, GOSV used the State’s budgeting and reporting system to record and
allocate salaries and benefits to its grants; however, we found that the data input to the system was
not always correct. As a result, the Corporation should ensure that controls are in place to validate
the data input to the state’s system.

Finding No. 4 – Expenditures Were Misstated on Financial Status Reports

Our review disclosed that the expenditures reported by GOSV on its financial status reports for
administrative grant activities were overstated. As noted in Finding No. 3 above, GOSV initially
charges to its administrative grants the entire salaries and fringe benefits for all GOSV employees
that provide support to the AmeriCorps program operations. Then, about every six months, GOSV
utilizes its grant allocation timesheets to adjust the administrative grant by reallocating applicable



                                            26
costs to the PDAT and disability grants, as well as, the portion allocable to the State’s matching
share. The reallocation process does not coincide with the filing dates for FSRs; as a result, salary
and benefit costs that are attributable to other grants and the State’s matching costs are reported in
the Administrative grant. Likewise, the other grants (PDAT and Disability) and State’s matching
costs are understated by the same amounts. For example, the FSR for the Administrative grant
(04CAHMD001) was overstated by $223,317 for the reporting period ending December 2004.

45 C.F.R. § 2541.200, Standards for financial management systems, requires that “a State must
expend and account for grant funds in accordance with State laws and procedures for expending and
accounting for its own funds. Fiscal control and accounting procedures of the State, as well as its
subgrantees and cost-type contractors, must be sufficient to - (1) Permit preparation of reports
required by this part and the statutes authorizing the grant.” In addition, 45 C.F.R. § 2541.200(b),
requires that “the financial management systems of other grantees and subgrantees must meet the
following standards (1) Financial reporting. Accurate, current, and complete disclosure of the
financial results of financially assisted activities must be made in accordance with the financial
reporting requirements of the grant or subgrant.”

Recommendation

The Corporation should provide assistance as necessary to ensure that GOSV implements a system
to make timely adjustments to its grant accounts and to correctly report expenditures on its financial
status reports.

GOSV’s Response

GOSV concurred with the finding and has taken action to ensure that adjustments to its grant
accounts are correctly reported as expenditures on its financial status reports.

Auditor’s Comments

The Corporation should obtain documentation from GOSV to show that an effective system is in
place to make timely adjustments to its grants and to correctly report them as expenditures on its
financial status reports.

Finding No. 5 – Financial Status Reports Were Not Always Supported by Information in the
Financial Management System

The review disclosed that GOSV did not have an effective system in place to timely reconcile
expenditures, as reported on FSRs, with expenditures as recorded in its financial management
system. As a result, we found significant variances between the reported and recorded expenditures
for the seven active GOSV-level grants during our audit period. The differences, by grant, are
summarized in the table below.




                                            27
                                    Cumulative          Accounting
            Grant No.            Reporting Period        Records          FSR       Variance
       01LCSMD021               10/01/00 to 03/31/04      $350,314      $327,044     -$23,270
       01SCSMD020               01/01/04 to 03/31/04        -30,297       56,512       86,809
       02DSCMD022               01/01/04 to 03/31/04         12,014       18,690        6,676
       02PDSMD020               01/01/04 to 03/31/05         78,618      117,492       38,874
       04CAHMD001               04/01/04 to 12/31/05       642,525       586,318      -56,207
       04CDHMD001               01/01/04 to 12/31/05         49,246       53,393        4,147
       05PTHMD001               01/01/05 to 12/31/05         55,082       65,371       10,289
         Net Variance                                                                 $67,318

The Provisions for Program Development and Training, Disability Placement and State
Administrative Awards, C(12)(a), Financial Management Provisions, General, provide that “the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary.
Financial management systems must be capable of distinguishing expenditures attributable to this
Grant from expenditures not attributable to this Grant. This system must be able to identify costs by
programmatic year and by budget category and to differentiate between direct and indirect costs or
administrative costs.”

Recommendation

The Corporation should provide assistance as necessary to ensure that GOSV:

       1. Implements a system to reconcile expenditures as recorded in the financial management
          system to the expenditures reported on the FSRs prior to each submission.
       2. Records timely adjustments to the accounting system or the FSRs, as necessary.
       3. Reassesses the variances noted in the finding to determine whether the financial status
          reports should be revised and whether funds should be returned to the Corporation.

GOSV’s Response

GOSV concurred with the finding and recommendations and will take action to make sure that
expenditures reported on FSRs are supported by information in its financial management system.
GOSV attributed the variances cited in the report to overlapping reconciliation periods, where
salaries, benefits and indirect cost recoveries were adjusted.

Auditor’s Comments

At the time of the review, GOSV made available all of its grant expenditure records, including
adjustments for salaries, benefits and indirect cost recoveries; however, it did not provide
documentation to account for the variances. The Corporation should obtain documentation from
GOSV to account for all of its grant expenditures, including the variances.




                                            28
Finding No. 6 – Cumulative Expenditures Were Not Always Correctly Reported on Financial
                Status Reports

The review disclosed that the FSRs submitted by GOSV and tracked in the eGrant reporting system
were not always correct. As a result, financial accountability controls and grant monitoring at the
Corporation level can be weakened.

We found that the amount reported on FSRs as cumulative Federal share of outlays was not
consistently carried forward to the next FSRs. For example, the FSR for the Administrative grant
(04CAHMD001) showed an ending cumulative balance of $296,074 on December 31, 2004, while
the beginning balance for the next FSR (June 30, 2005) was reported as $209,488; therefore, the
cumulative Federal share of the outlay of funds was understated by $86,586.

 The FSR ending December 31, 2005, reported a cumulative total of $499,733 in Federal share
outlays; however, no adjustment was made to correct the reporting error noted in the prior period.
Since the reported Federal share outlays were understated in the prior period by $86,586, the
adjusted cumulative Federal share outlays would be $586,319 ($499,733 + $86,586). Thus, the
grant’s authorized funding of $522,394 was exceeded by $63,925.

45 C.F.R § 2541.200, Standards for financial management systems, requires that “a State must
expend and account for grant funds in accordance with State laws and procedures for expending and
accounting for its own funds. Fiscal control and accounting procedures of the State, as well as its
subgrantees and cost-type contractors, must be sufficient to - (1) Permit preparation of reports
required by this part and the statutes authorizing the grant.” In addition, 45 C.F.R. § 2541.200(b),
requires that “the financial management systems of other grantees and subgrantees must meet the
following standards (1) Financial reporting. Accurate, current, and complete disclosure of the
financial results of financially assisted activities must be made in accordance with the financial
reporting requirements of the grant or subgrant.”

Recommendation

The Corporation should provide assistance as necessary to ensure that GOSV reviews each of the
active grants to determine whether the FSRs need to revised and resubmitted to show the correct
beginning and ending Federal share outlays amounts.

GOSV’s Response

GOSV concurred with the recommendation and will work with the Corporation to revise and
resubmit correct FSRs, as necessary.

Auditor’s Comments

The corrective action proposed by GOSV is responsive to the recommendation.




                                           29
Finding No. 7 - GOSV Claimed Unallowable and Unsupported Costs

The Summary of Results section identified questioned costs, which are described in detail in the
notes to Schedules A through D. These consist of costs claimed by the GOSV and subgrantees that
re related to alleged violations of provision of laws. regulations, or grants or other agreements or
documents governing the expenditure of funds; findings that, at the time of the audit, such cost is
not supported by adequate documentation; or a finding that the expenditure of funds for the
intended purpose is unnecessary or unreasonable.

Recommendation

We recommend that the Corporation:

              Follow up with GOSV to determine if questioned and unsupported amounts should
              be allowed, or disallowed and recovered. Also, the Corporation should apply the
              five percent administrative rate to any costs deemed unallowable and recover these
              costs as well.
              Make certain that GOSV better train its subgrantees on determining the allowability
              of costs and documentation required to support claimed costs.

              Require that GOSV implement review procedures to test the allowability of
              Commission and subgrantee cost.
              Make certain that costs incurred and reported directly by GOSV meet all OMB
              circular requirements for allowability.

GOSV's Response

GOSV provided additional information for consideration by the Corporation in making a
determination as to whether the questioned costs are allowable or unallowable grant expenditures.

Auditor's Comments

Although the GOSV response provides additional information on the issues relating to the identified
questioned costs, the Corporation still needs to make a determination as to whether the questioned
costs and education awards should be allowed, or disallowed and recovered.



                                      7l   PC.
Rockville, Maryland
May 19,2006
                                                                   Appendix A

Response of the Maryland Governor’s Office on Service and Volunteerism




                                 30
STATE OF MARYLAND
EXECUTIVE DEPARTMENT
ROBERT L. EHRLICH, JR.                                                                                       MICHAEL S. STEELE
GOVERNOR                                                                                                     LIEUTENANT GOVERNOR


                                         GOVERNOR’S OFFICE ON SERVICE AND VOLUNTEERISM
STATE OFFICE BUILDING, 15TH FLOOR                                                              MAIN NUMBER           410-767-1216
301 WEST PRESTON STREET                                                                        FAX                   410-333-5957
BALTIMORE, MARYLAND 21201                                KEITH J. HART                         TTY                   410-333-5181
                                                           DIRECTOR                            TOLL FREE           1-800-321-VOLS
                                                                                                               www.gosv.state.md.us




                 September 11, 2006



                 Carol Bates
                 Assistant Inspector General For Audit
                 Corporation for National & Community Service
                 1201 New York Ave, NW Suite 830
                 Washington, DC 20525

                 Dear Ms. Bates:

                         The Maryland Governor’s Office on Service and Volunteerism has reviewed the
                 draft report on the Audit of Corporation for National and Community Service Grants
                 Awarded and has enclosed comments for your review. We respectfully request that our
                 comments are considered as well as all of the facts that have been furnished as a result.

                 Sincerely,



                 Keith J. Hart
                 Director


                 Enclosure

                 Cc: Rob Platky , Director of Financial and Administration Office of the Governor




                                                                                                              1
STATE OF MARYLAND
EXECUTIVE DEPARTMENT
ROBERT L. EHRLICH, JR.                                                                                                 MICHAEL S. STEELE
GOVERNOR                                                                                                               LIEUTENANT GOVERNOR


                                            GOVERNOR’S OFFICE ON SERVICE AND VOLUNTEERISM
STATE OFFICE BUILDING, 15TH FLOOR                                                                        MAIN NUMBER           410-767-1216
301 WEST PRESTON STREET                                                                                  FAX                   410-333-5957
BALTIMORE, MARYLAND 21201                                   KEITH J. HART                                TTY                   410-333-5181
                                                               DIRECTOR                                  TOLL FREE           1-800-321-VOLS
                                                                                                                         www.gosv.state.md.us




                                      Maryland Governor’s Office on Service and Volunteerism

                                                      Response to Audit Report


                 Finding No. 1 – Grants Were Not Closed and FSR’s Were Not Submitted in a Timely Manner

                 The audit cites delinquent closeouts on four awards. The Governor’s Office on Service and
                 Volunteerism would like to respectfully disagree with all cases except one where the grants were
                 not closed in a timely manner. Subsequently, the financial status reports with the subsequent
                 submission dates note that they were inputted by the service center via electronic format.
                 However, hard copies of the entire closeout package were submitted in a timely manner.

                 The Governor’s Office on Service and Volunteerism would also like to note that the dates noted
                 are not reflective of actual submission dates in all cases. In some instances, the FSR’s were
                 returned to our office for updates. In the other cases, the Governor’s Office on Service and
                 Volunteerism worked closely with the Corporation and actively communicated the technical
                 difficulties during the eGrants conversion, to ensure reports were submitted. For the instances
                 where reporting encompasses sub-grantee reports, the Governor’s Office on Service and
                 Volunteerism will implement a system that will eliminate continual reconciliation and ensure timely
                 reporting.

                 Nevertheless, the GOSV concurs with the recommendation to place a higher priority on
                 reconciling and submitting FSR’s and will implement the recommendation to request formal
                 extensions in all cases.

                 Finding No. 2 – Subgrantee Files Were Not Always In Compliance With Program Requirements

                 a) Mid-Term/ Final Evaluations-

                 The Governor’s Office on Service and Volunteerism concurs with and will implement the
                 recommendation to comply with grant requirements for conducting member evaluations. To
                 address this finding, program officers will revise our training and monitoring efforts to improve the
                 practice noted by the auditors.

                 b) Termination of Member-

                 The GOSV takes exception with the finding related to a member receiving a living allowance as a
                 fulltime member for the duration of her term of service even though she became unable to meet
                 her service hour obligation.

                       1. The member continued to serve her required hours until she neared her delivery date as
                          agreed upon by her site supervisor and program manager. All parties understood she
                          had ample time remaining in the program to complete her term of service as a full time
                          member after giving birth.
                       2. After giving birth, the member experience undue hardship as a new mother with childcare
                          limitations and completing her hours. This circumstance was not deliberate, but
                          unforeseen.
    3. The GOSV formally request that the Corporation for National and Community Service
       revise its grant provisions and issue guidance around compelling personal circumstance
       in regard to AmeriCorps women who elect to become pregnant during their term of
       service, as it has for men who elect to serve in the military.

c) Timeliness of Timesheets-

The GOSV will work with all subgrantees to ensure timesheets are turned in and signed by the
site supervisor or program manager in order to be approved in a timely manner. However, the
provisions state “The grantee must keep time and attendance records on all AmeriCorps
members in order to document their eligibility for in-service and post-service benefits. Time and
attendance records must be signed and dated both by the member and the individual with
oversight responsibilities for the member.” (22c-ii)

The auditors concern is with timesheets becoming vulnerable to tampering with or improper
reporting. The auditors have no basis for such a finding, but more an inference to what could
happen. There is no formal directive found in the provisions to include what a “timely manner” is,
nor has there been any findings of timesheets having been tampered with or improperly reported.

d) Pro-rated Education Awards: The GOSV concurs with this finding.

e) Criminal Background Checks: The GOSV takes exception with this finding. The member in
question conducts, as part of her routine environmental service, an educational presentation to
families with children visiting the Salisbury Zoo. This presentation is conducted in public to
random groups. It is the opinion of the program and the GOSV that this service context does not
warrant criminal background checks because in the setting in which the member is serving, the
population of children, chaperoned by their parents, is not vulnerable.

f) Eligibility Documentation: The GOSV advises the Corporation that in all of the member files
reviewed, documentation of citizenship or permanent resident status was erroneously established
via social security card, driver’s license, and Department of Labor Form I-19. This form requires
signature of the member, upon penalty of perjury, affirming that he/she is a citizen of the United
States. The GOSV routinely reviews program documentation practices to ensure collection of
DOL Form I-9. The misconception that the Department of Labor Form I-9, which requires
signature of program director verifying review of documentation from column B (driver’s license)
and column C (social security card) was perpetuated by the GOSV program officers whom held
the same misconception. Beginning with the 2006 – 2007 program year, the GOSV requires
programs to collect birth certificates as proof of citizenship.

Finding No. 3 - Charges of Salaries and Benefits to the Administrative Grants Were Not
Supported by Employee Timesheets

Documentation supporting the questioned costs has been provided. In accordance with OMB
Circular A-87, Attachment B 8.h. (3), the GOSV provided for consideration, certifying affidavits to
serve as an equivalent personnel activity report recognizing that the work performed by the
employees whose salaries and benefits were charged and allocated to grants. The affidavits
noted that the activities of the employees involve directing and coordinating the grant making
activities of the agency and that a portion of the salaries and fringe benefit costs are allocable to
the State’s matching share.

    1. The GOSV concurs with the recommendation. The GOSV has already taken corrective
       action and will have evidence of such within the State’s budgeting and reporting systems
       to accurately allocate and record charges to its grants for salaries and benefits.
    2. The GOSV will implement the recommendation that requires its employees that work
       entirely on one program to certify at least semi-annually that they worked solely on that
       program.
Finding No. 4 - Expenditures Were Misstated on Financial Status Reports

The audit cites that the reallocation process does not coincide with the filing dates for FSR’s; and
as a result, expenditures are misstated. The need to reallocate applicable costs periodically will
be minimized. Thus, the GOSV concurs and has taken action to ensure that adjustments to its
grant accounts are correctly reported as expenditures on its financial status reports.


Finding No. 5 – Financial Status Reports Were Not Always Supported by Information in the
Financial Management System

The variances cited in the audit report are reflective of overlapping reconciliation periods where
salaries and benefits are adjusted as well as indirect cost recoveries. In all cases except one, due
to the timing of FSR submissions, many of the adjustment transactions were not reflected on the
accounting records thus accounted for as unliquidated on the FSR. The GOSV recognizes that
the various reports must be available to accurately report on the financial status reports and will
work with the appropriate resources to obtain the required accounting reports. The first instance
of variances noted on the summarized chart are reflective of adjustments made during closing out
the grant.

        1. The GOSV concurs and will implement a system to reconcile expenditures as
        recorded in the financial management system to the expenditures reported on the
        FSRs prior to each submission.

        2. The GOSV concurs and will record timely adjustments to the accounting
        system or the FSRs, as necessary.


Finding No .6 – Cumulative Expenditures Were Not Always Correctly Reported on Financial
Status Reports

The GOSV concurs with the recommendation and will work with the Corporation to ensure that
each active grant is reviewed to determine whether the FSRs need to be revised and resubmitted
to show the accurate beginning and ending Federal share outlay amounts.

Finding No. 7 – GOSV Claimed Unallowable and Unsupported Costs

The GOSV has provided individual supporting documentation for each result of identified
questioned costs for Schedules A through D. See attachments

    •   The GOSV will provide the Corporation with documents to support the amounts
        questioned and will work with the Corporation to determine if the amounts are allowed,
        disallowed or should be recovered.

    •   The GOSV will better train its subgrantees on determining the allowability of costs and
        documentation required to support claimed costs.

    •   The GOSV will implement review procedures to test the allowability of Commission and
        subgrantee costs.

    •   The GOSV will make certain that costs incurred and reported directly by GOSV meet all
        OMB circular requirements for allowability.
STATE OF MARYLAND
EXECUTIVE DEPARTMENT
ROBERT L. EHRLICH, JR.                                                                                              MICHAEL S. STEELE
GOVERNOR                                                                                                            LIEUTENANT GOVERNOR


                                           GOVERNOR’S OFFICE ON SERVICE AND VOLUNTEERISM
STATE OFFICE BUILDING, 15TH FLOOR                                                                     MAIN NUMBER           410-767-1216
301 WEST PRESTON STREET                                                                               FAX                   410-333-5957
BALTIMORE, MARYLAND 21201                                  KEITH J. HART                              TTY                   410-333-5181
                                                              DIRECTOR                                TOLL FREE           1-800-321-VOLS
                                                                                                                      www.gosv.state.md.us



                                         Comments for Claimed and Questioned Costs

                 Note 1 (Schedule A)
                 In order to establish eligibility to serve in an AmeriCorps program, Salisbury University has
                 requested documentation from each member who did not have a birth certificate in his or her
                 member file. A review of 75 member files disclosed that 21 members did not have proof of
                 citizenship. To date, 8 members have submitted proof of citizenship to their program. The
                 documents were sent to the Governor’s Office on Service and Volunteerism and forwarded to
                 Leon Snead and Co. in July 2006. The program will continue to retrieve all appropriate
                 documentation during the resolution period to avoid returning funds and has agreed to only enroll
                 members with proof of U. S. citizenship documentation.

                 Note 2 (Schedule A)
                 Teach for America concurs with this finding and will repay $4,473.00

                 Note 3 (Schedule A)
                 The program understands and concurs with this finding. The GOSV will work with the program to
                 ensure that full time members are not improperly recorded in WBRS as part time members who
                 later receive pro-rated education awards.

                 Note 4 (Schedule B)
                 The Governor’s Office on Service and Volunteerism would like to submit a response for
                 consideration regarding the circumstance for claimed and questioned costs in the category of
                 ineligible education award for 2 (two) members.

                 The program director approved one member’s education award because of the 2003 delay in
                 AmeriCorps funding that caused the program year to pause enrollment for six weeks in the
                 summer of 2003. The program director believed this qualified as a compelling personal
                 circumstance in his case, because it was beyond the member’s control.

                 In this member’s case, he successfully completed all program requirements for his program and
                 his Service Site (documentation on file). However, his graduate school began in August 2004
                 and he was not able to work ahead to complete 1,700 in advance of the program’s completion
                 date. The member worked hard all year to earn extra AmeriCorps hours, but he was hindered by
                 his rural location on Maryland’s Eastern Shore and his lack of transportation (documentation on
                 file). Additionally, the member was very successful at his Service Site and completed 96 percent
                 of his hours—in spite of the scheduling and logistical problems.

                 The second member disclosed a medical condition in her initial interview in September 2002
                 (documentation on file) that might impact her ability to complete the service year. Her evaluations
                 showed that she was making good progress on her program requirements and working closely
                 with program staff and the Service Site to complete her hours. She also took on a part-time job to
                 supplement the AmeriCorps stipend; unfortunately, the part-time job and illnesses made it
                 impossible for her to catch up on service hours when she fell behind.

                 The program director approved this member’s pro-rated education award because, she had made
                 every possible effort to fulfill the terms of her contract with the program and AmeriCorps while
                 facing personal circumstances that hindered her ability to complete 1,700 hours. In spite of these
                 personal challenges, by the end of her term of service, the member had fulfilled 100 percent of



                                                                                                                     1
her program development, training attendance, and communication requirements, and she
completed 88 percent of her service hours. For these reasons, the program director granted a
pro-rated education award.


Note 5 (Schedule B)
The GOSV was satisfied with the member files reviewed, documentation of citizenship or
permanent resident status was erroneously established via social security card, driver’s license,
and Department of Labor Form I-19. This form requires signature of the member, upon penalty of
perjury, affirming that he/she is a citizen of the United States. The GOSV routinely reviews
program documentation practices to ensure collection of DOL Form I-9. The misconception that
the Department of Labor Form I-9, which requires signature of program director verifying review
of documentation from column B (driver’s license) and column C (social security card) was
perpetuated by the GOSV program officers whom held the same misconception. Beginning with
the 2006 – 2007 program year, the GOSV requires programs to collect birth certificates as proof
of citizenship.

Note 6 (Schedule B)
Frostburg State University concurs with this finding and has agreed to repay the $1, 117.

Note 7 (Schedule B)
The program concurs with this finding and agrees to return $7,391. The GOSV has explained to
the program the proper procedures for expenditures when transitioning from a planning grantee
to a competitive funded program.


Note 8 (Schedule C)
The Governor’s Office on Service and Volunteerism has provided affidavits to certify the
questioned employees that worked on AmeriCorps programs. Although, affidavits covered the
annual periods of employment, each allocation summary worksheet for those employees
indicated that timesheets were not on file and subsequently, the allocation distributed did not
exceed budgeted amounts.

The Governor’s Office on Service and Volunteerism respectfully requests that the documentation
is considered as supporting documentation as required by OMB Circular A-87, Attachment
B.8.h.(3).and as required by OMB Circular A-87, Attachment B.8.h.(4). The Governor’s Office on

Note 9 (Schedule C)
The Governor’s Office on Service and Volunteerism is working with the State’s finance office to
apply the appropriate indirect cost rate adjustment to reflect the actual indirect costs to be
recovered for the period of June 2004 against the administrative grants . Hence, the GOSV will
provide the necessary supporting documentation and appropriate cost allocation adjustment
required by OMB Circular A-87, Attachment A.C.3.a

Notes 10 (Schedule C)
The Governor’s Office on Service and Volunteerism is currently working with the vendor to
resolve the duplicate expenditure and The Governor’s Office on Service and Volunteerism will
provide the necessary documentation and appropriate adjustment required by OMB Circular A-
87, Attachment A.C.1

Notes 11 (Schedule D)
The Governor’s Office on Service and Volunteerism has examined the duplication of costs during
the overlapping service periods for the Learn and Serve program grant made to the subgrantee.
Furthermore, the GOSV will work with the Corporation to determine if the amounts should be
recovered.



                                                                                                  2
                                                                 Appendix B

Response of the Corporation for National and Community Service




                             31
                                     3ifi""d"kAL
                                              &
                                     COMMUNITY
                                     SERVICE=



To:
From:

Ce:           Kristin h d a m , Director of
              Sherry Wright, Audit Resolution              r, Office of the CFO
Date:          September 8,2006

Subject:      Response to OIG Draft Audit Report: Audit of Corporation for National and
               Community Service Grants Awarded to the Maryland Governor's Oilice on
               Service and Volunteerism


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Maryland Governor's Commission. We do not have specific comments at this
time, We will respond to all findings and recommendations in our management decision when
the final audit is issued; we have reviewed the findings in detail; and worked with the Maryland
Commission to resolve the audit.

The Commission has indicated it is working with its subgrantees to gather member
documentation. Nearly 66% of the questioned wsts were related to two programs that
improperly accepted driver's licenses or Social Secwrity cards as proof of citizmship. ARer the
audit exit conference, the Commission began working with the programs to secure appropriate
citizenship or permanent resident alien documentation for the members to confirm their
eligibility to participate in Arnericorps.
